                                                                Issue Date
                                                                             June 25 , 2012

                                                                Audit Report Number
                                                                        2012-SE-1004




TO:        Jack Peters, Director, Office of Community Planning and Development, 0AD

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 0AGA


SUBJECT: The City of Seattle, WA, Used Its CDBG-R Funds in Accordance With HUD
           and Recovery Act Requirements


                                   HIGHLIGHTS

 What We Audited and Why

            We reviewed the City of Seattle’s Community Development Block Grant-
            Recovery (CDBG-R) program. Our objective was to determine whether the City
            used its CDBG-R funds in accordance with U.S. Department of Housing and
            Urban Development (HUD) and Recovery Act requirements and subgrantee
            expenditures were appropriate, eligible, and supported. We selected the City for
            review because it received $3.26 million in CDBG-R funds, more than any other
            municipality in Region 10 (Alaska, Idaho, Oregon, and Washington).


 What We Found

            The City used its CDBG-R funds in accordance with HUD and Recovery Act
            requirements and subgrantee expenditures were appropriate, eligible, and
            supported.


 What We Recommend
            This report contains no recommendations, and no further action is necessary with
            respect to this report.
Auditee’s Response


           We provided a draft report to the City on June 14, 2012. The City provided its
           comments on June 21, 2012 and expressed their appreciation of the review. The
           complete text of their response is in Appendix A of this report.




                                           2
                            TABLE OF CONTENTS

Background and Objective                                                       4

Results of Audit
      The City Used Its CDBG-R Funds in Accordance With HUD and Recovery Act   5
      Requirements

Scope and Methodology                                                          6

Internal Controls                                                              7

Appendix
      A. Auditee comments                                                      8




                                         3
                      BACKGROUND AND OBJECTIVE

The American Recovery and Reinvestment Act of 2009 became Public Law 111-5 on February
17, 2009. It provided for the creation and preservation of jobs, infrastructure investment, energy
efficiency and science, assistance to the unemployed, State and local fiscal stabilization for the
fiscal year ending September 30, 2009, and other purposes. Authorized under Title XII of the
Recovery Act, the U.S. Department of Housing and Urban Development (HUD) allocated $1
billion in Community Development Block Grant (CDBG) funds to State and local governments
to carry out, on an expedited basis, eligible activities under the CDBG program. The CDBG
program works to ensure decent affordable housing, provide services to the most vulnerable, and
create jobs through the expansion and retention of businesses.

On August 12, 2009, the City of Seattle and HUD entered into a grant agreement for more than
$3.2 million in CDBG funds under the Recovery Act (CDBG-R). The City used the funds for
two programs: (1) loans to small businesses to facilitate job creation and retention and serve
disadvantaged communities and (2) loans for public facility improvements for expansion and
rehabilitation of five structures serving populations hard hit by the ongoing economic recession.
Our objective was to determine whether the City used its CDBG-R funds in accordance with
U.S. Department of Housing and Urban Development (HUD) and Recovery Act requirements
and subgrantee expenditures were appropriate, eligible, and supported.




                                                4
                               RESULTS OF AUDIT

The City Used Its CDBG-R Funds in Accordance With HUD and
Recovery Act Requirements
The City allocated almost $3.23 million of its $3.26 million CDBG-R grant to seven subgrantees
as follows:

   Subgrantee                        Purpose of subgrant                        Amount
                                     Food bank expansion and
   Jewish Family Services            improvement                                $ 489,344
   Pike Market Childcare and         Childcare center expansion and to
   Preschool                         bring entire facility up to code              250,000
   Seattle Chinatown International
   District Preservation and         Nutrition services rehabilitation,
   Development                       renovation, and expansion                     196,000
                                     Weatherization and energy efficiency
   Housing Authority of Seattle      upgrades for two projects                     850,000
   Seattle Economic Development
   Fund                              Provide loans to small businesses             695,000
   Rainier Valley Community
   Development Fund                  Provide loans to small businesses             250,000

   Shorebank Enterprise Cascadia     Provide loans to small businesses             495,000
   Total subgrants                                                              $3,225,344

We reviewed the City’s procedures for awarding the subgrants and monitoring subgrantee
expenditures and activities. We also visited all seven subgrantees and reviewed the activities
funded by the City’s CDBG-R grant (see Scope and Methodology). Our review determined that
the City used its CDBG-R funds in compliance with HUD and Recovery Act requirements and
its subgrantees adequately documented that CDBG-R expenditures were appropriate, eligible,
and supported.


 Recommendations


              This report contains no recommendations, and no further action is necessary with
              respect to this report.




                                               5
                        SCOPE AND METHODOLOGY

We performed our review from March 8 through April 30, 2012. We performed our onsite audit
work at the City’s administrative offices at 700 5th Avenue, Seattle, WA, and seven subgrantee
offices at various locations in Seattle. Our review covered the period August 12, 2009, through
March 2, 2012.

To accomplish our audit objective, we

      Reviewed applicable laws, regulations, and HUD requirements;
      Reviewed the City’s policies and procedures, monitoring, and internal controls;
      Interviewed City and subgrantee staff;
      Reviewed the supporting documentation for 1 of the 10 CDBG-R reports made by the
       City to Recovery.gov;
      Reviewed the City’s grant agreement and its agreements with subgrantees;
      Reviewed subgrantee procurement documentation for all 5 facility improvement projects
       funded by the CDBG-R grant; and
      Visited all 5 facility improvement projects to determine whether the renovations and
       improvements were completed in accordance with subgrantee agreements.
We performed site visits to all 7 of the subgrantees and reviewed the files documenting 20 of 61
total subgrantee draws representing more than $2 million of the more than $3.2 million in
subgrantee expenditures. The 20 draws selected for review consisted of the 2 highest dollar
draws each from 5 of the subgrantees, 4 draws from another subgrantee, the only draw from the
remaining subgrantee, the 2 highest dollar draws for administrative expenses, and 3 additional
draws used for small business loans that defaulted. The review was designed to determine
whether the expenditures were eligible and adequately supported.

We used the source documentation maintained by the City to compare to information in HUD’s
Integrated Disbursement and Information System. We did not rely on automated data to support
our audit conclusions. All conclusions were based on source documentation reviewed during the
audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective.




                                                6
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over the use of CDBG-R funds in compliance with laws and
                      regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of the City’s internal control.




                                                 7
Appendix A

                          AUDITEE COMMENTS




                                   City of Seattle
                              Human Services Department

   June 21, 2012


   Ronald J. Hosking
   Regional Inspector General for Audit
   U.S. Department of Housing and Urban Development
   Office of Inspector General
   Region X
   Federal Office Building
   909 First Avenue, Suite 126
   Seattle, WA 98104-1000

   Re: Discussion Draft Audit Report on City of Seattle CDBG-R Program

   Dear Mr. Hosking:

   The City of Seattle appreciated the opportunity to work with the HUD Office of
   Inspector General auditors as they conducted their monitoring activities on the
   City’s CDBG-R Program. We thank the Office of Inspector General for their review
   of our program and their conclusion that we are using CDBG-R funds in
   accordance with HUD and Recovery Act requirements.

   Please contact me directly at (206) 684-0263 if you need additional assistance on
   this matter.

   Sincerely,




   Dannette R. Smith, Director
   Human Services Department
   City of Seattle




                                           8
